HHS/OIG, Audit -"Review of Cash Management Procedures Used by Washington University in St. Louis ,"(A-07-01-00133)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Cash Management Procedures Used by Washington University in St.
Louis," (A-07-01-00133)
December 4, 2001
Complete
Text of Report is available in PDF format (415 KB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report presents the results of our audit of the cash management procedures
used by Washington University in St. Louis (University) to control the funds paid
by the Payment Management System (PMS) during the three years ended June 30, 2000.  We
found that the University did not have adequate policies and procedures in place
to monitor daily cash balances and to precisely calculate interest earned on positive
daily cash balances.  In monitoring the daily cash balances, the University
did not consider (1) outstanding checks
and  (2) overhead costs as incurred.  In addition, the University did
not use the appropriate interest rates when calculating the interest remitted to
the Federal Government.  We determined that the amount of excess interest
remitted by the University was comparable to the amount of interest that should
have been remitted if appropriate procedures had been used.  We believe that
this occurrence was a coincidence due to off setting factors in the Universitys
calculation of the amount to be remitted.  We are recommending that the University
revise its written policies and procedures to effectively monitor the daily cash
balance and to accurately compute the Federal remittance.